No. 21-443

 

 

In THE
Supreme Court of the United States

WILLIAM BEAUMONT HOSPITAL,

Petitioner,
v.

UNITED STATES OF AMERICA, EX REL.
Davin L. FELTEN, M.D., PH.D.,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

BRIEF OF AMICI CURIAE AMERICAN
HOSPITAL ASSOCIATION, FEDERATION OF
AMERICAN HOSPITALS, MICHIGAN HEALTH
& HOSPITAL ASSOCIATION, KENTUCKY
HOSPITAL ASSOCIATION, OHIO HOSPITAL
ASSOCIATION, AND TENNESSEE HOSPITAL
ASSOCIATION IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,914 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 14, 2021.

id,

Colin Cas#y Hogan
Wilson-Epes Printing Co., Inc.

  
